No.
IN THESUPREME COURT OF THE UNITED STATES
PETITIONER

DEVERICK SCOTT # 131042
VS.

PAMELA COOK

RESPONDENT(S)

PROOF OF SERVICE
I, Deverick Scott, do swear or declare that on this date, /& / /3 , 2020 , as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
1. United States Supreme Court
2. Leslie Rutledge, Arkansas Attorney General.
I declare under penalty of perjury that the foregoing is true and correct. Executed
on

, 20^
/s/
Deverick Scott # 131042
20

